No. 20-7004

IN THE UNITED STATES SUPREME COURT

 

MATA, CAMILLE T.,

Petitioner,

MASSACHUSETTS COMMISSION AGAINST
DISCRIMINATION,

Respondent.

 

RULE 44 CERTIFICATE

 

Petitioner, Camille T. Mata, pursuant to 128 U.S.C. 1746, hereby
declares under penalty of perjury that the following is true and correct;

This Petition for Rehearing is presented in food faith and not for delay;

The grounds for this Petition are limited to intervening circumstances
of a substantial or controlling effect or to other substantial grounds not
previously presented.

Respectfully,
oO

Camille T. Mata

Date: April 13, 2021
